<html>
<title> - IMPROVING THE VISITOR EXPERIENCE AT NATIONAL PARKS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




           IMPROVING THE VISITOR EXPERIENCE AT NATIONAL PARKS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                 THE INTERIOR, ENERGY, AND ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2017

                               __________

                            Serial No. 115-7

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-748 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                           
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                  Rebecca Edgar, Deputy Staff Director
                    William McKenna, General Counsel
                         Chris Esparza, Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director

                                 ------                                

          Subcommittee on the Interior, Energy and Environment

                   Blake Farenthold, Texas, Chairman
Paul A. Gosar, Arizona, Vice Chair   Stacey E. Plaskett, Virgin Islands
Dennis Ross, Florida                 Jamie Raskin, Maryland
Gary J. Palmer, Alabama              (Vacancy)
James Comer, Kentucky                (Vacancy)


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 5, 2017....................................     1

                               WITNESSES

Mr. Glenn Casamassa, Associate Deputy Chief, National Forest 
  System, U.S. Forest Service, US. Department of Agriculture
    Oral Statement...............................................     4
    Written Statement............................................     7
Ms. Linda Lanterman, Director of the Division of State Parks, 
  State of Kansas
    Oral Statement...............................................    12
    Written Statement............................................    14
Mr. Chris Edmonston, Vice President of Government Affairs, 
  BoatU.S.
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. Rick Cables, Vice President of Natural Resources and 
  Conservation, Vail Resorts
    Oral Statement...............................................    23
    Written Statement............................................    25

                                APPENDIX

Opening Statement of Subcommittee Chairman Blake Farenthold......    42

 
           IMPROVING THE VISITOR EXPERIENCE AT NATIONAL PARKS

                              ----------                              


                        Wednesday, April 5, 2017

                  House of Representatives,
          Subcommittee on the Interior, Energy and 
                                        Environment
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:18 p.m., in 
Room 2247, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the subcommittee] presiding.
    Present: Representatives Farenthold, Ross, Palmer, 
Plaskett, and Raskin.
    Mr. Farenthold. The Subcommittee on the Interior, Energy, 
and the Environment will come to order. Without objection, the 
chair is authorized to declare a recess at any time.
    Good afternoon. Today, the Subcommittee on the Interior, 
Energy, and Environment will be examining the Concessions 
Program at the National Park Service, or NPS.
    Last year, the country celebrated the 100th anniversary of 
the NPS. Now that the festivities of that milestone are over, 
it's time to get back to work improving the Park Service.
    The NPS is the custodian of some of our greatest national 
treasures. To that end, we must make sure that it's performing 
well and living up to this responsibility.
    In July of 2015, shortly before the centennial 
celebrations, this subcommittee held a hearing that began the 
Oversight and Government Reform Committee's involvement in 
these issues. In her opening statement, my predecessor as 
chair, Cynthia Lummis of Wyoming, quoted Stephen Mather, the 
first director of the National Park Service. I believe the 
quotation is worthy of repeating today. He said: ``Scenery is a 
hollow enjoyment to the tourist who sets out in the morning 
after an indigestible breakfast and a fitful night's sleep on 
an impossible bed.''
    This is a particularly astute observation. To be able to 
enjoy our Nation's stunningly beautiful parks, beaches, 
monuments, wildlife, and other features, the people need food, 
lodging, and other appropriate amenities.
    To this end, since the first national parks were created in 
the late 19th century, there has been a history of private 
companies working on these parks to provide services to 
visitors. Unfortunately, the amenities at many parks have aged 
poorly and many have not been maintained properly.
    The National Park Service must modernize. It has failed to 
meet the challenge or the changing demands of its visitors. 
Millennials and modern families want tech services, like WiFi 
and internet access. Cell service is not only an amenity, it's 
an important safety consideration.
    When NPS does not keep up, our parks lose visitors to other 
tourism opportunities, such as privately run theme parks and 
other attractions. Certainly, we don't need to turn our parks 
into Disneyland, but we do need to keep up with what 21st 
century Americans want when vacationing.
    I want to see my friends' vacation pictures at our parks on 
Facebook, Twitter, and Instagram, and I want to know I can get 
help in the event of an emergency by dialing 911.
    By providing up-to-date technology, contemporary food and 
beverage service, and a choice between rustic, comfortable, and 
modern places to stay and unique visitor experiences, our parks 
become more attractive. This is where the role of 
concessionaires is critical. They help provide these services 
while providing much-needed funding to the Park Service.
    In our last hearing on the subject, we heard of several 
instances of bureaucratic red tape getting in the way. For 
instance, one park had a 1,629-page-long bid request outline 
that cost one concessionaire 2,500 company management hours and 
more than $90,000 to fill out. As another example, we heard 
about parks with campgrounds that sell out, but are only open 
for part of the year due to bureaucratic requirements.
    Fortunately, we have sources of ideas for ways to update 
the NPS. For instance, in partnering with ski areas, the Forest 
Service has found a way for people to use the land it leases 
year round. Furthermore, good ideas have come from various 
State park systems, such as Kansas' matching of park fees with 
demand.
    I hope to hear more about these ideas and more from our 
panel today. I very much look forward to hearing suggestions on 
a way forward from here and hopeful the committee can help 
update our National Park System.
    I would now like to recognize our ranking member, Ms. 
Plaskett, for her opening statement.
    Ms. Plaskett. Thank you very much, Mr. Chairman.
    And thank you all for being here this afternoon to talk 
about such an important part of the American experience, our 
national parks.
    I appreciate the National Park Service's protection and 
care of our Nation's cherished natural and cultural resources 
and for the important educational and recreational 
opportunities they provide for all Americans. The National Park 
Service plays an important economic and recreational role in my 
district, the U.S. Virgin Islands. We have national parks on 
all three of our major islands. Well, technically, St. Croix, 
Hassel Island, which is off of St. Thomas, and, of course, St. 
John.
    On the island of St. John, the Virgin Islands National Park 
covers approximately 60 percent of the island and includes the 
Cinnamon Bay Resort and Campground located inside of the 
National Park Service, as well as Caneel Bay, one of the most 
wonderful resorts as well.
    Under a new concession agreement reached last fall between 
the National Park Service and Redwood Company, the campgrounds 
are currently undergoing extensive renovations that include 
eliminating bare sites and installing Eco-Tents. The original 
plan called for 64 Eco-Tents, but after public opposition, that 
was reduced to 55.
    My office has received several complaints regarding the 
relocation of bare site camping and the high cost and quality 
of the new Eco-Tents. This is an example of how improvements of 
park sites can lessen and not improve on the visitor experience 
at the national parks.
    After the Park Service held its centennial celebration in 
2017, we must ensure that the very best services are provided 
for the 280 million visitors that our national parks attract 
each year, as well as the local employment that it can provide 
through the vendors and through those individuals who work at 
those park sites and the relationship they have with the 
communities that are located adjacent or sometimes even within 
the parks themselves.
    Vendors play a key role in providing visitor services. They 
offer a wide range of recreational and retail services, while 
helping to generate more than $1.2 billion annually in revenue 
for the Federal Government, as well as the revenues that our 
local economies are able to receive by visitors and individuals 
who come to the parks and pass through the areas in which the 
parks are located. Vendors also employ more than 25,000 workers 
and drive economic growth in the communities surrounding the 
parks.
    I understand that the public is demanding more recreational 
and cultural opportunities during their visits to the national 
parks. I also understand that vendors are ready, willing, and 
able to provide these additional visitor services, but they've 
encountered some barriers. We want to understand what these are 
and how we here in Congress can be supportive of the vendors as 
well as the parks.
    Today, we will examine some of the challenges faced by the 
National Park Service and vendors in providing the best visitor 
experiences to our parks. Those challenges include a rigid 
contracting process, contracts which create negative cash flow 
for vendors, and the Park Service's failure to meet public 
demand for more services.
    Although the Park Service has made great improvements in 
its contracting process in recent years, more work can and 
should be done. We can always work to improve the contracting 
process with great cooperation between government and industry.
    I look forward to hearing from the witnesses as we explore 
possible solutions that can drive progress in these issues.
    Thank you.
    Mr. Farenthold. Thank you.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    We will now recognize our panel of witnesses. I am pleased 
to welcome Mr. Glenn Casamassa. You're associate deputy chief 
of the National Forest System for the United States Forest 
Service and the United States Department of Agriculture.
    We have Ms. Linda Lanterman, director of the Division of 
State Parks for the State of Kansas.
    Welcome.
    Mr. Chris Edmonston, the vice president of government 
affairs for BoatU.S. And Mr. Rick Cables, the vice president of 
natural resources and conservation at Vail Resorts.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. Would you please rise and raise your right 
hand?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Thank you. Please be seated.
    And you can let the record reflect that all witnesses 
answered in the affirmative.
    In order to allow time for questions and discussions, we'd 
appreciate it if you'd limit your testimony to 5 minutes. Your 
entire written statements will be made part of the record. 
There ought to be a timer in front of you. The green light will 
be on for the first 4 minutes. The yellow light, much like a 
traffic light, means speed up--I'm just kidding there--and the 
red light means your time is up.
    So we'll start first with Mr. Casamassa.

                       WITNESS STATEMENTS

                  STATEMENT OF GLENN CASAMASSA

    Mr. Casamassa. Good afternoon, Chairman Farenthold, Ranking 
Member Plaskett, and members of the subcommittee. I appreciate 
the opportunity to appear before you today regarding the Forest 
Service recreation program.
    We are proud of the work we accomplish with our private 
industry partners to provide the best possible breadth of 
choice and the highest quality outdoor recreation opportunities 
for the American people. Today, our national forests hosts 149 
million visits. Since 2009, estimates of our recreation 
visitation has been rising by an average of about 1 million 
visits per year.
    Through their direct and ripple spending, recreationists 
who visit the national forests contribute billions to the U.S. 
economy and support thousands of jobs, the vast majority of 
which are in gateway and rural communities. Outdoor recreation 
supports significant employment opportunities and offers a 
tremendous economic stimulus for local municipalities.
    In addition to the continued popularity of traditional 
activities, like recreational sport shooting, hunting and 
fishing, we are seeing growth in ziplining and snowboarding, 
off-highway vehicle use, rafting trips, or guided backcountry 
trips.
    The combination of public demand and tremendous economic 
contributions makes outdoor recreation one of the more 
challenging programs in public land management, pushing the 
Forest Service to seek innovative approaches in balancing the 
growing demand for recreation and economic interest for further 
development with landscape conservation for generations to 
come.
    We administer recreation special uses that enable thousands 
of private sector professionals to lead a range of activities 
on national forests and grasslands. For many Americans, these 
activities represent their first introduction to their national 
forests and grasslands, and the outfitters and guides they use 
are small businesses, providing jobs and income.
    For example, approximately 4 million people visit the 
Coconino National Forest in Arizona, which surrounds the city 
of Sedona. Several outfitter and guide permits are issued to 
locally owned and operated businesses. One specific example of 
an outstanding working relationship we have with an outfitter 
is the Pink Jeep Tours. This small business provides about 100 
percent of the maintenance to the Broken Arrow Road, one of the 
most popular 4x4 routes in the area.
    The national forests also host more than 120 alpine ski 
areas. These facilities are privately owned and constructed by 
our permittee partners, who provide recreation opportunities 
for proposing and developing sites in response to industry 
trends and public needs.
    We are working with the ski areas to go beyond snow season 
by enhancing year-round recreation, providing more choices for 
visitors, and creating additional jobs around resort 
communities.
    This is a win-win situation. More people will be able to 
find jobs in communities around ski areas, and more Americans 
will have access to year-round opportunities in these beautiful 
and convenient settings.
    Recognizing the critical role that private enterprise plays 
in outdoor recreation on our national forests and grasslands, 
we're also working to expand how we service businesses and the 
public by improving the permitting process.
    Special uses remains one of the primary economic drivers of 
the agency, in terms of both receipts to the government and 
national and local economic activity. Modernizing the special 
use program creates a more predictable business environment and 
a more efficient workforce.
    The Forest Service is working to eliminate redundant 
process, simplify forms, improve internal and external 
communication, improve financial accountability through 
simplification of fees, and streamlining the environmental 
analysis process for use of a continuing nature. Presently, our 
line officers have discretion to waive the special use 
authorization requirements for proposed uses on a case-by-case 
basis. Forest Service guidance stresses that officers shall 
allow activities that will have little impact on the land to 
move forward without undue process.
    Also, the Forest Service has implemented an agreement with 
GSA's 18F for development of an ePermitting System. We will 
soon offer a more convenient way for the public to apply for 
special use authorizations via an online application process.
    A national Campground and Day-Use Concession Review was 
conducted in early fiscal year 2017. The goal of the review was 
to enhance public-private ventures and agency business 
practices that promote true partnerships and identify 
shortfalls in agency policy and procedures.
    The Forest Service remains committed to serving the 
American public through commonsense cooperation with 
businesses, who drive the enormous diversity of recreation 
opportunities on American national forests.
    Thank you for the opportunity to testify. I'd be happy to 
answer any questions you may have.
    [Prepared statement of Mr. Casamassa follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. Farenthold. Your timing is phenomenal. I assume you 
practiced that. Thank you.
    Ms. Lanterman, you are up for 5 minutes.

                  STATEMENT OF LINDA LANTERMAN

    Ms. Lanterman. Thank you, Chairman Farenthold, Ranking 
Member Plaskett, and members of the subcommittee. I am here 
representing the Kansas Department of Wildlife and Parks, the 
Division of State Parks. We manage 26 State parks, with an 
annual budget of $12 million.
    I am also the vice president of the National Association of 
State Park Directors. It's an organization dedicated to helping 
State park systems effectively manage and administer their 
State park systems.
    I am here, though, today to discuss Kansas State parks, as 
well as the national State park landscape and how State park 
systems work to improve outdoor recreational opportunities for 
their constituents and conserve natural resources, through 
partnerships, innovations, and reducing barriers.
    Nationwide, there are over 10,000 State park areas. They 
are comprised of over 18 million acres, and we receive more 
than 790 million visits annually.
    Those State parklands may be owned outright by States or 
consist of lands leased from Federal agencies. As a result, 
Federal partnerships are crucial to the success of State park 
systems, as well as to the success of Federal agencies which 
make their lands available for public use.
    Of special importance to State park systems are Federal 
programs, such as the Land and Water Conservation Fund, the 
National Recreational Trails Grant, and the AmeriCorps program. 
State parks around the country collectively serve the public 
with more than 37,000 miles of trails, over 241,000 campsites, 
over 9,400 cabins and cottages, and 161 lodges. Operating 
expenditures account for $2.5 billion, with less than half of 
those expenditures coming from the general funds of the States. 
Nineteen thousand full-time and 29,000 part-time or seasonal 
staffs work tirelessly to provide topnotch memorable visitor 
experiences.
    Nationally, it's been estimated there may be as much as $95 
billion in unfunded capital improvements and maintenance needed 
just to sustain the State park systems. In Kansas, our capital 
improvement and maintenance needs are over $25 million.
    The Kansas State Parks Division and the Department do not 
receive any State general funds. Instead, our State parks are 
funded primarily from revenues we receive from our State park 
vehicle permits, camping permits, and cabin rentals. In 
addition, we also receive a portion of the Department's 
allocation of the Economic Development Incentive Fund, which is 
funded by proceeds from the Kansas Lottery.
    However, there are many State park systems that benefit 
from dedicated funding sources. The Land and Water Conservation 
Fund, the Recreational Trails Grant program, and the AmeriCorps 
program have always been an important and efficient matching 
fund for Kansas State parks. We rely heavily on our 
partnerships with our friends groups, our volunteers, and other 
park supporters that provide financial, labor, and advocacy 
support.
    With the support of Governor Brownback, we have implemented 
several measures to meet challenges of operating a primarily 
fee-based parks program. For example, we aggressively market 
our State park systems within Kansas, nationally and 
internationally. We hold staff positions open at times to save 
staffing costs. We've been successful in matching permit fees 
with demand.
    Additionally, we have special events to attract and 
encourage our customers' ongoing loyalty. Some of those events 
include outdoor music concerts, live bands, guided nature 
hikes, Halloween events, Black Friday with the hashtag 
#OPTOUTSIDE, the Governor's Campouts and, of course, our First 
Day Hike.
    To be competitive in today's leisure market, it's important 
that we address the changing needs and expectations of our 
customers. Some of the land use policies of the Federal 
agencies need to be modernized so our parks can compete for our 
Nation's young family free time.
    Among the immediate changes we recommend concerning our 
Federal landlord partners are more flexible lease agreements, 
more streamlined processing of concessionaire contracts, an 
ability for our Department to retain all net proceeds arising 
from hosting of special events designed to attract our 
customers.
    Some of the Corps properties, we have both State park and 
Corps parks. Efficiencies could be improved if these two levels 
of government were not duplicating their services, such as 
camping.
    Kansas State parks and those in other States attract a 
diverse clientele who enjoy traveling in their home State and 
visiting parks in other States. Staying at a State park is 
truly a form of recreation that's important on a national 
level.
    From my testimony today, I hope you really see the 
important role Federal partnerships are and how the Federal 
funding in our State parks and how important the partnership 
with State parks are nationally to an efficient public land 
strategy.
    I too will accept any questions. Thank you.
    [Prepared statement of Ms. Lanterman follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    Mr. Farenthold. Thank you.
    Mr. Edmonston, you are up for 5.

                  STATEMENT OF CHRIS EDMONSTON

    Mr. Edmonston. Mr. Chairman, Ranking Member Plaskett, and 
members of the committee, I am pleased to be here representing 
the 550,000 members of the Boat Owners Association of the 
United States, BoatU.S. We appreciate the chance to share how 
access, public-private partnerships, and technology can improve 
the visitor experience in national parks and other public 
lands.
    Reflecting on the visitor experience in national parks 
provides an opportunity to consider how important access to the 
water really is. Boaters need facilities to launch and 
retrieve, dock, moor, and anchor their boats. Providing such 
access is vital to keeping boating available to the American 
public.
    The thoughtful oversight of this committee and Congress 
should focus the National Park Service and other Federal 
agencies on providing such access to our public lands and 
waters. In our experience, how well a particular national park 
unit or other Federal entity provides access is highly 
variable. In some cases, they welcome boats, which might be the 
only way to reach some of the more remote areas. Other park 
units do not always welcome all boats and often make management 
decisions that diminish public access.
    The controversies at Key Biscayne National Park surrounding 
fishing closures, adequate moorings, bans on certain types of 
boats, and expansive nonmotorized zones is of grave concern to 
us. In our view, a shift in management philosophy to one that 
welcomes all users, not just the young and fit, is long 
overdue.
    Our current system of waterway access provides a good 
example of the wide range of partnerships that can benefit all 
of us. For example, many boating access programs are funded by 
the Sportfish Restoration Boating Trust Fund. This user pay-
everyone benefits fund is supported primarily through taxes on 
boaters and anglers. The system is widely supported by the 
boating and angling communities. Boaters are not looking for a 
free ride and are quite willing to pay reasonable fees, 
provided they can count on the facilities being available and 
well-managed.
    We recognize there is a reconsideration of Federal budget 
priorities currently underway. We respectfully suggest that 
investment in facilities that provide access to public lands 
and waters should remain a priority for this Congress.
    Each year, over 80 million Americans go boating, with a 
large portion doing so on federally managed waters. We ask the 
help of this Congress to be sure that recreational boaters, as 
well as other outdoor recreation participants, aren't ignored 
as tough budget decisions are made.
    During another time of budget crunches several decades ago, 
the Coast Guard shifted its mission focus and ended its 
longtime policy of aiding recreational boaters stranded on 
public waters. While they do continue to come to the aid of 
those in life-threatening conditions, other situations, such as 
a malfunctioning engine or running out of fuel, are no longer a 
time where the Coast Guard will provide assistance.
    In response to this policy change, BoatU.S. created a 
nationwide towing dispatch service, which today has more than 
600 towboats across the country and is available at a very 
reasonable cost. The program is effective, it's popular, and it 
allows the Coast Guard to focus on emergency missions. In fact, 
there is a large industry of on-water service providers which 
works closely with State and Federal agencies to ensure that 
recreational boaters receive prompt and professional assistance 
on the water, assistance which over the past few decades has 
saved the Coast Guard untold millions of dollars.
    Another area where we see opportunity for Federal agencies 
to provide better service involves the application of new 
technology. Information on boating and other outdoor 
opportunities are often difficult to discover on many 
government or individual park websites.
    Such resources should be welcoming to visitors and provide 
ways to discover all the activities available. This requires a 
new outlook on the part of Federal managers, one with a view to 
enhance the visitor experience as part of their core mission.
    We also see technology as a way to enhance access while 
protecting resources. Providing greater connectivity will open 
up management options, such as allowing faster updates to 
resource information, better reporting of available activities, 
such as fishing or camping, and the purchase of passes and 
permits needed for recreating. BoatU.S. supports the 
appropriate use of technology to improve visitor experiences on 
all public lands and waters.
    In closing, recreational boaters and anglers have an 
abiding interest in the protection of our waterways, as do 
other recreational users of public lands. We wish to see these 
special places protected. We also need to be able to reach 
these special places in many different ways. Providing 
appropriate access is crucial to the long-term political and 
financial support for national parks and other public lands.
    We appreciate the opportunity to bring the voice of boaters 
before the subcommittee. Thank you.
    [Prepared statement of Mr. Edmonston follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mr. Farenthold. Thank you, Mr. Edmonston.
    Mr. Cables, you are recognized for 5 minutes.

                    STATEMENT OF RICK CABLES

    Mr. Cables. Mr. Chairman, Ranking Member Plaskett, and 
members of the committee, thank you for the invitation today.
    Vail Resorts operates 13 premier resorts worldwide. We have 
resorts in Canada, in British Columbia, and Australia. The 
others are all in the United States. We have some of the most 
iconic and beautiful landscapes that we operate on in the 
Nation, and we've learned a thing or two about managing people 
and providing a guest experience that I want to share today.
    Six of our largest resorts are on the national forest, and 
we have a 40-year permit with the United States Forest Service 
that lays out exactly how we can operate. It's a classic 
example of a public-private partnership, where the Federal 
Government provides the land and our business provides the 
business acumen, the capital, and the operational capability to 
deliver wonderful experiences for the American public and our 
guests. We provide a fee to the Treasury for leasing the land, 
which is substantial.
    It wasn't long ago that ski areas were just thought of as 
for the winter recreation. You do it on snow. And so for the 
bulk of the winter, that's when ski areas operated. In the 
summer, they didn't. In the fall, they didn't. The private land 
ski areas started changing that by offering summertime 
activities on the ski resorts and including things like hiking 
trails, mountain biking trails and mountain coasters, ziplines, 
and those sorts of activities.
    And so about a decade ago, we approached our partner, the 
United States Forest Service, with the idea: Can we do that on 
our public land resorts? Can we actually open it up for four 
seasons? The response was: Yes, and it's probably better if you 
get some enabling legislation that helps do that.
    So we approached Congress, and in 2011 the Ski Area 
Recreation Opportunity Enhancement Act was passed unanimously 
in both Houses. And I think that's a testament that it just 
made common sense that you would use this land for four 
seasons. We have the infrastructure in place, parking lots, 
restaurants. They were sitting idle half of the year. It helps 
us round out the resort communities' economies, because we 
provide jobs all year round now, and for our own employees. So 
the benefits, both from a guest experience and from an economic 
benefit, are significant.
    Our company proposed the first projects under the new law 
in 2014, after the regulations were promulgated. We started at 
Vail in Colorado and Heavenly at Lake Tahoe. We proposed 
ziplines, coasters, canopy tours, mountain biking trails, and a 
whole host of fun things to do. Our concept is learn through 
play. So we want people to learn a little bit about the natural 
environment and also have fun on these mountains.
    The results are spectacular. If any of you ever want to 
come out and enjoy a zipline at 11,000 feet, you should do it. 
The public loves it. The economic benefits are coming. Our 
guests are up in the summer versus what we had before, clearly. 
And we've got a partnership with the Nature Conservancy to take 
a percentage of our revenue and put it into conservation 
projects.
    We've worked with the Forest Service because we want 
uniformed rangers on the mountain. The public loves it when 
they're on the mountain and there's a ranger there that can 
talk to them about the environment, the wildlife, the forest, 
water, whatever questions they may have. So we're really 
excited about that. It's working.
    The challenges we have are with funding and the way the 
Forest Service budget's fire suppression has eaten into the 
other programs, like recreation. So the Forest Service is 
having a hard time keeping up with us.
    We have a proposal to solve that. If we could get 
legislation that allows us to keep the fees we pay local, then 
we can help fund the Forest Service and they can be a better 
partner and a healthier partner. Senators Gardner and Wyden on 
the Senate side are proposing this legislation and working with 
us on it, and we'd like to work with Members of Congress here.
    And also, obviously, there's process streamlining that 
would help. We think there's ways to streamline some of the 
National Environmental Policy Act analysis associated with 
really common projects that we do.
    So, again, I'll close by saying, if you can imagine a 
family, maybe a single parent from Denver, that gets up to Vail 
that's really never spent time in the mountain, getting on a 
chair lift in the fall with the Aspen turning, getting up on 
the mountain and doing a mountain bike trip or riding a 
mountain coaster, and just hooking those people on the outdoors 
and recreation, that's what we're trying to do, have fun and 
get people out and do it in a way that we haven't done in the 
past.
    So our partners with the Forest Service have been fabulous 
to work with. I can't say enough about that relationship.
    Thank you, and look forward to your questions.
    [Prepared statement of Mr. Cables follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
      
    Mr. Farenthold. Thank you very much.
    And we'll start with Mr. Ross for 5 minutes of questioning.
    Mr. Ross. Thank you, Mr. Chairman.
    And I'm particularly grateful to our witnesses today who've 
testified. I feel like I've been to most of the locations that 
you all have discussed today.
    To give you an example, I grew up traveling to national 
parks with my grandfather in a 1960 Airstream, which I have now 
restored and own. We went to the '62 World's Fair staying at 
national parks--that shows you how old I am--'64 World's Fair, 
'67 World's Fair. But what we did is we stayed at the national 
parks because they were not only convenient, but they had full 
facilities and the commercial market didn't.
    And today, the RV industry is growing phenomenally. In 
fact, I own three RVs, one of which is an antique, one of which 
I let my boys use, and one of which my wife and I use when we 
travel around the country. By the time my boys were 12, they 
had been to all continental 48 States and predominantly staying 
in national parks throughout this country.
    And what we've seen, though, unfortunately, is that the 
national park campgrounds have declined from nearly 4.5 million 
overnights in the 1980s to less than 2 million overnight stays 
in 2013. There's an opportunity being missed there, not only by 
the national parks but by the citizens of the United States 
because they don't have a chance to enjoy those phenomenal 
resources, those natural resources that are out there.
    So my questions are, first of all, Ms. Lanterman, I love 
what you guys are doing with public-private partnerships and I 
think that you've hit on something there, but it's the capital 
requirements that are necessary. And if Kansas is like Florida 
and like any other State, those resources, those dollar 
resources are so limited. Are there opportunities for bond 
issues to be funded by revenues from concessionaires or things 
of that nature? Is Kansas looking into creative ways to finance 
these capital improvements?
    Ms. Lanterman. We actually do. That's a great question. We 
look at bond issues. And we've also looked at our foundation 
for support on putting in our cabin program. Actually, our 
foundation helped do that. And then our Governor, through the 
Economic Development Fund, paid those off.
    And so now we are reaping the benefits of those revenues. 
And today, as I sit here, we are still looking at a bond issue 
for another development in one of our bigger parks.
    So you have to look at all sources. You can't look at the 
State anymore just to fund.
    Mr. Ross. You can't. And, in fact, these RVs today have 
become so--I mean, really, you know, they're your home once you 
take the wheels off. But they're large and the facilities in 
our national parks just can't accommodate them, so we have to 
put in the infrastructure necessary to allow this.
    And then I guess my question is, Mr. Cables, you've talked 
about the four seasons in Vail and how you've been able to make 
use of a resource. What other ways can we utilize our national 
parks and creative financial resources to bring them up to 
speed so that they can accommodate today's recreational 
vehicles?
    Mr. Cables. Thank you, Congressman Ross.
    All I will say is that we found a way with our partner, our 
Federal partner, the United States Forest Service, to look at 
creative ways to expand recreational opportunities, and where 
there's a will, there's a way.
    The Forest Service came to us when we started working on 
these opportunities, and we proposed some things that they 
didn't believe were natural resource-based or went a little bit 
over the line, and we talked it through and worked it through 
and came up with an agreement on the things that really did 
make sense that we thought our guests would love and that the 
Forest Service----
    Mr. Ross. And it's been a good relationship.
    Mr. Cables. Yes. It's the relationship, it's the quality of 
the land managers that we deal with locally, that we've been 
able to work this through. So I think that's really the secret.
    Mr. Ross. And, Mr. Casamassa, if I might, how has your 
relationship been with the National Park Service, I mean, in 
terms of wanting to be able to expand the infrastructure in 
these national parks?
    Mr. Casamassa. I think at times, in my experience, working 
with park superintendents around different parts of the 
country, we've looked at ways to provide opportunities for one 
thing on the park, like, for example, a large parking lot. And 
then, in addition to that, we would then do something as it 
relates to camping on the National Forest System.
    So it was providing a full suite of amenities. I think we 
have the opportunity to expand that, to find a full suite of 
opportunities for people, but it doesn't necessarily have to be 
on one land administration or another. It could be done 
together.
    Mr. Ross. And just to bring in an aside here since I've got 
limited time here, working with the RV industry, working with 
the Outdoor Recreation Industry Roundtable, is that something 
that you're taking the initiative to do? I think that would be 
very fundamental to getting it done in a very all-encompassing 
way.
    Mr. Casamassa. I think right now to ensure that we can make 
our facilities contemporary and connect people to their public 
lands is paramount.
    Mr. Ross. I agree.
    Mr. Casamassa. And that any way that we can to set up 
roundtable discussions to understand fully what the needs are 
and try----
    Mr. Ross. And with the industry.
    Mr. Casamassa. With industry. And try to marry up the 
public lands with those kinds of needs is something that we'd 
be certainly interested in.
    Mr. Ross. Thank you.
    And I see my time is expired. I yield back.
    Mr. Farenthold. Thank you very much, Mr. Ross.
    Ms. Plaskett, I'll recognize you for 5 minutes.
    Ms. Plaskett. Thank you very much.
    The National Park Service is entering its second century, 
and I want to explore ways that the agency can better utilize 
the vendors that operate with them.
    Mr. Edmonston and Mr. Cables, I understand from your 
testimony here today that the path to improving visitor 
experiences in our national parks starts with an effective 
public-private partnership. Would you say that that is correct?
    Mr. Edmonston. Yes, ma'am. Thank you.
    One of the things I noticed, and I happened to look at the 
Park Service websites for your Virgin Islands, and I noticed 
several things related to vendors.
    First off, there is a 35-page guide to becoming a vendor in 
the Park Service, and I noticed that it hadn't been updated 
since 2001. When I read it, it seemed more of a way for the 
Park Service to limit liability for the parks rather than a way 
to encourage entrepreneurs to come into the park system.
    I also looked at ways people could utilize parks, their 
visit to the parks, like, let's say, they wanted to get married 
and they wanted a nice scenic overlook or a pavilion to get 
married in. The only way to do that would be to print out a 
form, mail it in with a nonrefundable deposit, and hope that 
the date and the facility you wanted were available. There was 
no way to look to see online even what facilities were 
available for renting. So if you didn't have local knowledge, 
you couldn't do it.
    There are many ways, simple ways, better use of technology, 
that could help visitor experience and also could make it 
easier for vendors to come in and use the parks.
    Ms. Plaskett. So just to go forward with that before I get 
to Mr. Cables, when you talked about, you know, in your 
testimony you talked about technology, and prior to the passage 
of the Centennial Act, the business community had raised 
several concerns with it. And within that, I know that there 
was some discussion about technology. You talked about the 
manual that is probably a PDF----
    Mr. Edmonston. Yes.
    Ms. Plaskett. --that is not interactive, not easy to 
utilize. What are some of the other new technology that we 
might--we know what's wrong, but what could the parks be using 
that would facilitate----
    Mr. Edmonston. Oh, goodness, I will defer to Mr. Cables on 
that since he uses that on a daily basis in his business.
    Mr. Cables. Thank you, Ranking Member Plaskett.
    First, real quick on the public-private partnership. Yeah, 
that has to start, be where it starts. The government, at least 
in my experience in the government, isn't the best at 
entrepreneurial, some entrepreneurial thinking, marketing, some 
of those kind of things. I think the private sector does that 
better. The private sector is an expert on the land management, 
the forest and wildlife and water science and the 
considerations associated with that. So if we're both playing 
to our strengths in a partnership, then it can really work, and 
I think that's been our experience.
    I would say on the technology, again, my expertise is more 
in natural resources, but we do have a program that we 
initiated a couple years ago called EpicMix where there's an 
app and people can track their vertical fee in a given day, and 
you can actually find out which lift lines are shorter than 
others. And it gives young people particularly but a lot of 
people the opportunity to use their phones and to use it in a 
way that's kind of fun and figure out where to meet and to do 
things along those lines.
    So we find that tying that kind of technology in with an 
outdoor experience can actually work and not diminish the 
outdoor experience, but actually enhance it.
    So, yes, we have some really talented people in our company 
that focus on technology and how it makes the guest experience 
better.
    Ms. Plaskett. Okay. Thank you.
    I think what I'm really trying to understand is, if we want 
to have these relationships and we want to work together, I 
don't want us to just be beating up on the park, but really 
offering them some constructive support, because we know that 
they have their budgetary constraints. They are a government 
agency. And so it's not their orientation to think this way.
    And how do we in Congress facilitate a way that you as 
vendors and you as entrepreneurs and being in this recreation 
and resort business can facilitate more people coming to the 
park. Because, listen, in the Virgin Islands, on St. John, we 
want to maintain the park. And we realize how important it is 
to our local economy, because when you get to St. John, you've 
got to come over on the ferry. That's a ferry fee for us. 
You're going to eat in a local restaurant. You're going to do 
other things. And that supports our economy. So how do we make 
that experience such that people are going to keep coming back?
    So if you all have any other thoughts, I'd just leave it up 
to--I see you, Ms. Lanterman, shaking your head. If you have 
any other thoughts or, otherwise, I'll yield back after that.
    Ms. Lanterman. What I would say is we are government, those 
of us that are in government, and we can change. And there are 
companies out there that can help us change, with iPhone apps 
and with a reservation system. And we are moving towards that.
    And sometimes it's a little bit slower, but I've found the 
best way for you learning those changes is when you go out and 
use it yourself. And so when we travel and when I travel on my 
own, I use those systems and I come back and I think: Oh, my 
gosh, we've got to do this.
    And so that's how you learn. And it's a process, but I 
believe it can be done.
    Mr. Farenthold. Thank you.
    And I want to follow up on a little bit of the testimony in 
my 5 minutes here.
    Mr. Casamassa, you talked about getting special use permits 
and the like. Can you give me an example of what some of the 
special uses that people use in the forest or parks?
    Mr. Casamassa. Sure. There's, say, recreational events. In 
some respects we have, say, a bike race that crosses over five 
different national forests in an entire State over a week's 
period of time. Lots of activity associated with an event of 
that scale. And that's one of the kinds of permits that we 
issue for those type of recreational events.
    We have outfitter and guide permits for whitewater rafting, 
hunting, fishing, mountain bike tours, OHVs, and the like. So 
there's a full suite of things that we look at when it comes to 
providing recreational opportunities to meet the demands and 
needs of people.
    Mr. Farenthold. So how do you balance the mission of 
preserving the wilderness with making it available to the 
public? This has got to be one of the biggest challenges. I've 
sensed in some--Park Service more so than Forest Service--but 
this is a great national park but for the damn tourists. I 
mean, how do you reconcile that?
    Mr. Casamassa. And that's a very delicate balance. And one 
of the ways that--I think about looking at opportunities, a 
full suite of opportunities. And maybe people only understand 
or are provided the information about one place that provides 
that opportunity. If you would then provide them a full suite 
of, well, are you looking for a hike? Are you looking for a 
lake? Are you looking for that kind of setting? You know, this 
is a very crowded place here, maybe we can direct you to 
another location.
    So I think it is a lot about information. It's a lot about 
balancing the maintenance and enhancement of that landscape for 
generations to come with the use.
    And I think there's an interest from the Forest Service 
about understanding a bit more about the carrying capacity, and 
perhaps we should be thinking through this and maybe looking at 
letting the users provide that carrying capacity for an area if 
we feel like that the area could be maintained, that there 
isn't any damage to the environment around it.
    So it's just about looking at it maybe in a different way 
that expands, I think, our opportunities.
    Mr. Farenthold. Ms. Lanterman, you work in the State parks, 
and I've found that States are a little bit more responsive to 
the public than we are here in Washington, D.C. Did you want to 
kind of weigh in on that balance as well?
    Ms. Lanterman. You know, we have to be. We are in the 
business of making sure that our customers have a place to go 
and that it's maintained. And we do our best, truly, to make 
sure that we have the loyalty of our constituent groups. And, 
frankly, they'll tell us if we do not.
    And so, along with what my colleague here said, it's an 
education process. We have to educate our users. You don't love 
and protect what you don't know about. And so that's what our 
process is, is try to educate our users when they come in so 
that we can keep it for the preservation for years to come.
    Mr. Farenthold. Mr. Cables, you look like you wanted to 
weigh in as well.
    Mr. Cables. Yes. I would say there are other mechanisms to 
do that. For example, for operating our ski mountains in the 
summer on national forests, we've zoned the mountain. So at the 
top of, like, the gondola, in an area that's already developed, 
there's hard infrastructure, the environment's been altered, 
that's where we'll put certain things like climbing walls, 
ropes courses, and some of the heavier infrastructure. And then 
as you get further from that location, you'll get into what we 
call zones two, three, four, and five, where there may just be 
the only appropriate use is a hiking trail.
    So it's a spectrum of concentrated recreation, which some 
people like. They don't want to get too far off, away from 
sight of a building. But yet others may want to do a mountain 
bike trip or a hiking trip and get really back away from 
everything. And there's a master development plan that we have 
to submit to the Forest Service that actually creates a zoning, 
and that's how we deal with that.
    Mr. Farenthold. Great.
    I've got some more questions, but I've only got about 10 
seconds left. So I'll save them to the second round of 
questioning and let Mr. Raskin go for 5 minutes.
    Mr. Raskin. Thank you for your courtesy, Mr. Chairman.
    Let's see. Mr. Casamassa, I was interested in something 
that you said just a moment ago where you were saying that 
people might have a cluster of different interests. They might 
want to do a hike. They might want to do camping near a Civil 
War battlefield. Is it possible on your website for me to put 
in all of my different requests and then for you to send me 
back what your advice is for where I might go?
    Mr. Casamassa. Well, I think there are opportunities to do 
that. We continue to enhance. Rec.gov, I think, is a multi-
agency website that provides, I think, a relatively large suite 
of opportunities for people to be informed, to maybe do some 
trip planning, to get some kind of reservations. Certainly that 
is unto itself a good start. Tailoring some of the more I'd say 
specific trips is something that we continue to work on.
    One thing that I'd like to add to that is that we recognize 
that providing information and education in more of a digital 
platform, really, what I call it is I think it adds capacity 
without adding any people.
    Mr. Raskin. Got you. Let me just follow up with you for 1 
second. I think you're the right person to direct this to, but 
others can comment if they need to.
    To what extent are you dealing with the effects of climate 
change and severe weather events, and to what extent is that 
having an effect on the visitor experience in national parks, 
in terms of floods, forest fires, hurricanes, severe events?
    Mr. Casamassa. And a good question. I think one of the 
things that I've experienced prior to coming to the 
headquarters here in our Nation's Capital is I've had to manage 
lands that had a significant number of forest fires, 
catastrophic events, that really impacted the landscape as a 
whole.
    In addition to that, I've seen some pretty significant 
flooding across a wide landscape that actually really wiped out 
all the roads and access, bridges, and some of our developed 
sites.
    Mr. Raskin. Where is that?
    Mr. Casamassa. In Colorado. And so that, you know, I've 
seen some significant weather events that we've had to adjust 
our thinking around how best to site areas and be able to 
adjust and mitigate to the best of our ability some weather 
events.
    Mr. Raskin. Thank you.
    I'm interested also in the question of accessibility. One 
of the things I've always loved about the national parks is, at 
least the ones I go to, people just go and they're not even 
paying. There might be some, I think, where people pay, but 
it's kept at a modest level. And I was moved by what Mr. Cables 
said about doing public-private partnerships that allow for 
different things to go on.
    But to what extent is that done with an eye towards 
accessibility for the whole population that would otherwise be 
able to come and hike there? Does it suddenly become off limits 
to large numbers of people because it's so expensive? Just 
curious what you might have to say about that.
    Mr. Cables. Thank you for the question.
    The resorts that operate on National Forest System lands, 
they're public lands. So uses can occur on those lands as long 
as they don't materially interfere with our permitted use. So, 
for example, people come up all the time in the summer and hike 
that don't pay a fee, don't get a ticket, don't engage in our 
own facilities or activities.
    Mr. Raskin. You're not displacing them.
    Mr. Cables. No, no, we're not, no.
    Mr. Raskin. But how much does it cost to do your kinds of 
things?
    Mr. Cables. Again, we've got one summer under our belt and 
we've got a suite of products for summer. The high end to do 
everything is like $80- to $90-dollar range.
    Mr. Raskin. For the day?
    Mr. Cables. Yes, for a day. And then we have a package, I 
think we call it the Little Explorer, which is around $50 for 
kids. And you can also do things a la carte, where you don't 
get the whole package, but you can go to a specific ride or do 
something along those lines separately. And we're still 
experimenting. Like I said, we've got one season under our 
belt.
    Mr. Raskin. That's great. Okay.
    And my final question is about education. Is there some 
formal effort underway to make connections with schools in 
local areas with the national parks?
    Mr. Casamassa. I would say that we, ``we'' the Forest 
Service, we invest heavily in student conservation service, 
resource assistant programs, and programs that connect youth to 
the outdoors. There are several applications that we use for 
children to be able to explore specific locations.
    So I think what we're trying to do is invest in youth to 
grow the next, I'd say, generation of conservationists in the 
country.
    Mr. Raskin. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Farenthold. Thank you very much.
    And I guess I'm back up for my second round of questions 
rather quickly.
    So I want to talk, Mr. Cables, a little bit about something 
that I've heard from various national parks and some forest 
concessionaires, and that's end of contract time.
    You've entered into I'm assuming a relatively long-term 
contract with the amount of capital investments that you have 
put in. But as you near the end of that term, say you've had 
a--I'm picking a number out of the air--say you've had a 30- or 
40-year lease, in the last 5 to 7 years there's not a lot of 
incentive for you to put a lot of money in maintenance and 
upgrades because most likely your whole deal will go out for 
bids again.
    Is there any middle ground or way that we can structure 
this to where we don't end up having a huge capital 
expenditure, putting in nice facilities up front, with no 
incentives other than contractual requirements to upgrade or 
improve the facilities?
    Twenty or 30 years down the road, we're not going to think 
of the amenities that people are going to want and are going to 
be necessary to keep your facility competitive, and you have no 
real financial incentive to do those upgrades as you're in the 
waning years of your contract.
    Mr. Cables. Thank you, Mr. Chairman.
    I would say that it sounds like you're describing an 
assumption or a set of assumptions based on the park's 
concession program versus ours. We have a 40-year term special 
use permit, which is a huge factor because it allows us to 
invest and amortize that investment over a long period of time, 
A.
    B, we own the facilities, so they're our facilities, and 
the equipment, the lifts, whatever, they're our facilities.
    And thirdly, at the end of the term of that permit, we're 
able to get a reissued permit, without competition, as long as 
we're managing and meeting the requirements of the permit. So 
we don't go through a competitive bidding process.
    Mr. Farenthold. Does anybody want to address that issue?
    Do you face that in Kansas?
    Ms. Lanterman. We actually do. And what we've done is we've 
enacted a list of what our concessionaires do. Are they in 
compliance? Have they always been in compliance? And then we 
allow them to renew.
    Our problem is, though, if we are on Corps or Bureau 
property, we cannot extend it beyond our lease. And that is if 
we have only a 25-year lease with them, we can't extend it 
longer than that.
    Mr. Farenthold. Okay, great.
    All right, so you talked about some of the funding issues 
and such. Is there ever a point where we can be closer to self-
sustaining? I mean, a lot of this, especially on the Federal 
level, is financed through appropriations. Obviously a ski 
resort has a much better chance of being self-sufficient than 
some wilderness park somewhere. How close to self-sufficient 
can we get?
    Ms. Lanterman. Well, I guess what I would say is the 
challenges we have is we have to--or at least we feel like we 
need to make sure our customers, all customers can come, so all 
clientele. Can they afford it? Can that single mom come? And we 
try to make our fees that way.
    Additionally, you have that weather issue. Most State park 
systems receive most of their revenue May through September. 
And so if you have weather issues in there, then you have a 
challenge of your finances and your cash flow coming in. And so 
I always believe that may be something that plays a part in 
this.
    Mr. Farenthold. Anybody else want to weigh in there?
    Mr. Edmonston. Yes, sir, I would like to. I mentioned in my 
testimony the Sportfish Restoration and Boating Trust Fund, and 
that is a system that collects fees based on the sales of 
boats, motors, fishing equipment. It collects some revenues 
from the gasoline tax.
    And it really goes a long way towards paying for a lot of 
the infrastructure that boaters and people who recreate on 
water use. It pays for fish stocking in most of the rivers and 
lakes around the country. It is a great partnership.
    And I would say that there is an appetite for more access, 
better access, better services. And if vendors were allowed to 
come in and provide those, maybe not at every park, maybe not 
at every piece of Federal land, but you would see an increase 
in revenue and you would be able to better manage your 
properties.
    And getting back to the leases, we have seen on 
particularly Corps of Engineers facilities, issues with marina 
managers losing their lease. We saw that up in New York after 
Hurricane Isabel, I believe, a few years ago, where a marina 
was taken out by the storm, and they were not allowed to 
rebuild, and we had to really have an act of Congress to get 
them to get their lease back. So that is an ongoing issue, yes.
    Mr. Farenthold. All right. Thank you very much.
    Ms. Plaskett, do you have some more questions?
    Ms. Plaskett. Yes, I did want to ask just a question to Mr. 
Casamassa, just along the lines of discussion about the growing 
public demand for outdoor recreation, discussing some of the 
best practices and initiatives you have identified in your 
testimony towards improving the visitor experience.
    How many partnerships are there between the Forest Service 
and small businesses utilizing recreational special use 
permits, if you are aware?
    Mr. Casamassa. Today, I want to say close to 25,000 
permits, recreational permits. I think that that is the number 
that we have for recreational opportunities. But it is in the 
thousands, and it is partnerships that we have for a full suite 
of activities.
    Ms. Plaskett. And how long does it take to apply and then 
receive the permit on average or typically?
    Mr. Casamassa. It depends on, I would say, what the 
proposal would be and how significant it would be, what the 
scope and scale of it. I would say for individual rec events it 
should not take but several weeks to get from a proposal into 
the actual issuance of a permit on something that is that 
relatively routine and minor, some of the activities now that 
we are saying that you don't really need a permit. Other 
activities that have some infrastructure considerations and 
some longer terms for the permit will take longer than that.
    Ms. Plaskett. What is the longest that you have seen 
permits take?
    Mr. Casamassa. That is a good question. From my own 
personal experience, I'd say over a year.
    Ms. Plaskett. Okay. And how much do the permits cost?
    Mr. Casamassa. It depends on what actually is being 
authorized.
    Ms. Plaskett. Okay. And then could you tell us a little bit 
about the rollout of ePermit system?
    Mr. Casamassa. Sure. One of the things that we've done, 
just to back up a bit, is that we have what we called a 
recreational diagnostic. It was both a public- and a private-
facing assessment of how well we were doing.
    We had five different things that came out of our 
diagnostic, and one of them was is that we wanted to connect 
youth to--we thought it would be advantageous to connect youth 
to the outdoors. We wanted to celebrate our iconic places. We 
wanted to ensure that there was appropriate access, both roads 
and trails. We wanted to increase our reach when it came to the 
digital strategy as another one. And we wanted to streamline 
our special use permitting process because we recognized that 
that was a bottleneck.
    And so in conjunction with the streamlining, we recognized 
that some of the activities could be done online. So we are 
making considerable investments right now not only in the back 
of the house with our data systems that connect to the front of 
the house, which would be our ePermitting issue. And we are 
looking at--right now we have a platform that we are working 
with AT&F on that could be--it could be used for a wide array 
of permits. Right now our launches are around rec special uses 
in specific areas, as well as Christmas tree permits.
    And so those are the things we are starting, but, again, 
that's one of the--for me, I am advocating that we invest in 
the technology to add capacity without increasing the number of 
people that we have.
    Ms. Plaskett. Thank you. I really appreciate the work that 
you all are doing, and I am particularly grateful that you talk 
about the youth program and working with young people. I think 
that that is really important. On the island of St. Croix we 
have had a really outstanding summer youth program with the 
National Park Service, which has been really instrumental in a 
lot of kids, high school students and others, really getting 
comfortable and having a great community awareness for the Park 
Service that is there in their communities.
    Personally, one of my sons ended up going to this program 
in the summer, being really involved in the restoration that 
was happening with our fort, went on to college to get his 
degree in architecture, and is in the outdoors doing this kind 
of work. So it has really been important to us.
    And I am also grateful to the regional director of the 
National Park Service who has committed to the Virgin Islands 
to reinvigorate the program on the Island of St. John, where 
that relationship is even more important because the proximity 
that the park and the community and the young people really be 
closely involved.
    So thank you so much, Mr. Chairman, for this opportunity to 
ask these questions.
    Mr. Farenthold. Thank you.
    And they've just called votes, which means we've got about 
5 minutes before we need to walk over to make it. So I just 
have one quick question for you guys. And if you all had some 
advice to give to the Park Service and/or concessionaires about 
what we need to do, what would it would be? And we will just go 
down the line with Mr. Casamassa.
    Mr. Casamassa. I would say, and I think that the--I don't 
know everything that the Park Service is doing, but I know that 
they are on a trajectory to look at or assess their concession 
program, and I think that that is something that we did. There 
are some good findings out of that. And to me, I would like to 
think that we would continue on with looking at ways to lever 
public-private partnerships through that assessment.
    Mr. Farenthold. Great.
    Ms. Lanterman.
    Ms. Lanterman. And I would suggest that the National Park 
Service, as they have in the past, just continue to work with 
America's State parks to help solve some of these issues too 
that we face too with them.
    Mr. Farenthold. Great.
    Mr. Edmonston.
    Mr. Edmonston. I would say it is maybe a slight change of 
focus in having the focus placed on how to enhance the visitor 
experience and how to work better with industry and other 
outside partners.
    Mr. Farenthold. Make it better for those doggone tourists.
    Mr. Cables.
    Mr. Cables. Talk and listen to your constituencies and have 
an open mind.
    Mr. Farenthold. All right. Well, listen, I want to thank 
our witness panel for being here. I think we got some great 
input. We do have votes coming up, so we will wrap this up if 
you guys are good with that.
    And I will ask unanimous consent that all members have 5 
legislative days to submit questions for the record. And 
without objection, that's so ordered.
    Did you have anything else, Mr. Raskin?
    All right. Well, then, with no further business, without 
objection, the subcommittee stands adjourned.
    [Whereupon, at 3:23 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
